App. 3

No. 20-50217
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

IN RE: MICHAEL SAMMONS AND ELENA SAMMONS;
Petitioners

Original Proceeding from the United States District Court,
Western District of Texas,
San Antonio, No. SA-18-CV-0194,
Honorable District Judge Fred Biery, Presiding
PETITION FOR A WRIT OF MANDAMUS

Michael and Elena Sammons, pro se
1013 10th St #B
Galveston, TX 77550
michaelsammons@yahoo.com
1-210-858-6199

1

25~

CERTIFICATE OF INTERESTED PERSONS
Michael Sammons, pro se, certifies that the following listed persons and
entities as described in Rule 28.2.1 have an interest in the outcome of this
case. These representations are made in order that the judges of this Court
may evaluate possible disqualification or recusal.

Respondent:
Honorable District Judge Fred Biery
Western District of Texas, San Antonio

Defendants:
Dryships, Inc.
George Economou, CEO of Dryships
Counsel for George Economou:
drubins@orrick.com
Daniel A. Rubins
efua@orrick.com
Emmanual Fua
Orrick, Herrington & Sutcliffe, LLP
51 West 52nd Street
New York, NY 10019
steven.fink@sjfinkpllc.com

Steven J. Fink
100 Wall Street, 15th Floor
New York, NY 10005

2
%

Counsel for Dryships, Inc:
Bruce G. Paulsen
Brian P. Maloney
Seward & Kissel LLP
One Battery Park Plaza
New York, NY 10004

paulsen@sewkis.com
maloney@sewkis.com

Michael D. Bernard
Melanie Lynn Fry
Dykema Cox Smith
112 E. Pecan Street, Suite 1800
San Antonio, Texas 78205

mbernard@dykema.com
mfry@dykema.com

Entities with an interest: None
Michael Sammons, pro se

3

7!\

TABLE OF CONTENTS

CERTIFICATE OF INTERESTED PERSONS

2

TABLE OF CONTENTS

4

TABLE OF AUTHORITIES

5

ISSUES PRESENTED

6

FACTUAL BACKGROUND

7

REASONS TO GRANT THE WRIT

9

1. "The District Court had no discretion to disregard
Mr. Sammons’ voluntary withdrawal from the case
pursuant to FRCP, Rule 41(a)(1)(A)(i)." ................

9

2. "Now that Mr. Sammons is no longer "a plaintiff' in this
case, the Rule 41(d) sanction and Rule 41(d) stay, both
directly solely and only at Mr. Sammons, are moot." ....

11

3. "A Non-Rule 41(d) Stay in this Case Would Be ‘Immoderate"
and of "Indefinite Duration."...................................................

13

4. "Non-Rule 41(d)) Stays of Indefinite Duration Will
Be Reversed." ...........................................................

16

5. "A Writ of Mandamus is the Only Means to Obtain Relief."

18

6. "Issuance of the Writ is Appropriate In This Case."

21

4

28

CONCLUSION

23

CERTIFICATE OF FILING AND SERVICE

24

CERTIFICATE OF COMPLIANCE

25

TABLE OF AUTHORITIES

Am. Cvanamid Co. v. McGhee, 317 F.2d 295 (5th Cir. 1963)
Colorado River Water Cons. Dist. v. U.S., 424 U.S. 800 (1976)

10
20,22

In re Digicon Marine. Inc.. 966 F.2d 158 (5th Cir 1992)

21

In re Estelle. 516 F.2d 480,483 (5th Cir. 1975) .........

21

Landis v. North American Co.. 299 U.S. 248, 254-56 (1936)

passim

McKnight v. Blanchard. 667 F.2d 477 (5th Cir. 1982)

passim

Pulliam v. Allen. 466 U.S. 522 (1984)

20

Rozelle v. Lowe. No. SA-16-CV-489-XR (W.D. Texas - San Antonio)

10

Sammons v. Economou. 940 F.3d 183 (5th Cir. 2019)

6

Sammons v. Economou. Fifth Circuit No. 19-51097 (2/18/2020)

7

SEC v. Krentzman. 397 F.2d 55 (5th Cir. 1968)

21

Oureshi v. United States. 600 F.3d 523 (5th Cir. 2010) ..........

10

United State v. Denson. 603 F.2d 1143 (5th Cir. 1979)(en banc)

11

Wedgeworth v. Fibreboard Corp.. 706 F.2d 541 (5th Cir. 1983)

passim

5

2-3

ISSUES PRESENTED
1.

Whether the district court had the discretion to refuse to recognize a
voluntary dismissal under FRCP, Rule 41(a)(l)(A)(i) because the case
was stayed and/or because the plaintiff had failed to comply with a
court order to pay prior case “costs" pursuant to FRCP, Rule 41(d).

2.

Whether Rule 41(d) and a Rule 41(d) stay can be applied to a non-party.

3.

Whether a non-Rule 41(d) stay would be appropriate in this case.
FACTUAL BACKGROUND
Most of the background facts can be found in Sammons v. Economou.

940 F.3d 183 (5th Cir. 2019).
The relevant facts here and now are:
(a)

"This case involves the appeal of two district court orders
(in 2018). The first requires that (Plaintiff) Michael Sammons
("Mr. Sammons") pay $26,726 in costs under Federal Rule of Civil
Procedure 41(d), and the second administratively closes the case
pending such payment." 940 F.3d at 184.

(b)

Plaintiff-Petitioner Dr. Elena Sammons ("Dr. Sammons"), a
cardiac anesthesiologist, was explicitly found not to be liable for
any of the Rule 41(d) costs sanction assessed against her husband,
Mr. Sammons. Id.
6

30

(c)

The case below was ordered stayed in 2018 until Mr. Sammons paid
the Rule 41(d) costs sanction. Mr. Sammons failed to make any
payment in 2018, 2019, or 2020.

(d)

A late 2019 motion and appeal by Dr. Sammons, both by she alone,
seeking to have Mr. Sammons dismissed with prejudice from the case
so that her separate and independent claims of federal securities
fraud could go forward were denied. Sammons v. Economou.
Fifth Circuit No. 19-51097 (2/18/2020)(holding that a Rule 41(d)
stay, even if "immoderate" or "of indefinite duration" as alleged by
Dr. Sammons, was proper because she could lift the Rule 41(d) stay
at any time by simply paying the in $26,726 Rule 41(d) sanctions
imposed against Mr. Sammons for Mr. Sammons - although, of
course, she had no legal obligation to do so).1

1 Dr. Sammons declined to pay the $26,726 Rule 41(d) fine assessed
against Mr. Sammons because she could not have recovered any of the
$26,726 on appeal from a final judgment even had she prevailed in this federal
securities fraud case. Given the pro se reversal rate in the Fifth Circuit - and
the scholarly Rule 41(d) legal analysis done by the district court - there was
almost no chance Dr. Sammons could have had the $26,726 Rule 41(d)
sanctions assessed against Mr. Sammons, and against Mr. Sammons alone,
reversed on an appeal from a final judgment - even had she won this federal
securities fraud case. And, to put it simply, Dr. Sammons could not afford to
simply throw away $26,726.
7

h\

(e)

On February 21, 2020 Mr. Sammons filed a formal Notice of
Voluntary Dismissal removing he and his claims from the case
pursuant to Rule 41(a)(1) (A) (i). Exhibit A, attached.

(f)

Mr. Sammons held some shares of defendant Dryships in only his
name. Dr. Sammons held some shares of Defendant Dryships in only
her name. And some shares were jointly owned. The dismissal by
Mr. Sammons included Mr. Sammons, all shares in his name, and one
half of the jointly held shares.

(g)

Mr. Sammons abandoned his claims. Dr. Sammons did not.

(h)

On February 22, 2020 Dr. Sammons, citing Mr. Sammons' withdrawal
from the case, moved to lift the Rule 41(d) stay as "moot" so that her
separate and independent claims against the Defendants for federal
securities fraud could go forward. Exhibit B, attached.

(i)

The defendants filed a timely Opposition, Exhibit C attached, to
which Dr. Sammons filed a timely Reply, Exhibit D attached.

(j)

On March 11, 2020 the District Court, in an Order without
any facts, law, or reasoning, see Exhibit E attached, denied
Dr. Sammons's motion to lift the stay, presumably for one of two
reasons argued by the Defendants: (1) that Mr. Sammons withdrawal

8

3a

from the case was ineffective because of the stay order, or (2) that,
even if Mr. Sammons was no longer a party to the case, that the
Rule 41(d) stay remained valid.
(k)

On March 15, 2020 both Mr. Sammons and Dr. Sammons mailed this
joint Petition for Writ of Mandamus to the U.S. Court of Appeals for
the Fifth Circuit.

REASONS TO GRANT THE WRIT OF MANDAMUS

1. The District Court had no discretion to disregard
Mr. Sammons' voluntary withdrawal from the
case pursuant to FRCP, Rule 41(a)(l)(A)(i).

It might have been helpful to this Court had the district judge given
some hint as to why the motion to lift the Rule 41(d) stay as moot, filed by
Dr. Sammons, was denied. Nevertheless, the reason seems obvious enough
from the March 11, 2020 Order of denial itself. Mr. Sammons filed his notice
of dismissal. The court clerk dropped Mr. Sammons as a named plaintiff on
the docket. Dr. Sammons in her motion to lift stay as moot listed herself as the
only remaining plaintiff. Yet the March 11,2020 Order of denial emphatically
listed the plaintiffs still as "ELENA SAMMONS and MICHAEL SAMMONS."

9

33

(emphasis added), clearly viewing Mr. Sammons as still a plaintiff (as
forcefully argued by the defendants in their Opposition).
FRCP, Rule 41(a)(1)(A) explicitly states "the plaintiff may dismiss an
action without a court order by filing: (i) a notice of dismissal before the
opposing party serves either an answer or a motion for summary judgment..."
It is undisputed that no Defendant in this case filed "either an answer or
a motion for summary judgment."
Once a notice of voluntary dismissal is filed, the district court in which
the action is pending loses jurisdiction and cannot exercise discretion with
respect to the terms and conditions of the dismissal. "The action is terminated
at that point, as if no action had ever been filed." Rozelle v. Lowe. No. SA-16CV-489-XR (W.D. Texas - San Antonio), citing Am. Cvanamid Co. v. McGhee,
317 F.2d 295, 297 (5th Cir. 1963). "In short, in the normal course, the district
court is divested of jurisdiction over the case by the filing of the notice of
dismissal itself." Oureshi v. United States. 600 F.3d 523, 525 (5th Cir. 2010)
(summarizing Am. Cvanamid. 317 F.2d at 297).
"The action (as to Mr. Sammons) is terminated at that point, as if no
action had ever been filed." Rozelle v. Lowe, supra. Simply stated it is as if
Mr. Sammons had never been a party to this case at all.

10

5^

The district court believed it had the discretion to keep Mr. Sammons in
the case because of the stay and/or because Mr. Sammons had failed to
comply with the 2018 court order to pay the Defendants $26,726. However,
as ex plained by the Rozelle court, citing Fifth Circuit precedent, the district
court no longer had jurisdiction, let alone the discretion, to attach any
conditions to the voluntary dismissal of Mr. Sammons and his claims from the
case. Mr. Sammons was already out of the case ... period, id.
Suffice it to say that a district judge exerting authority and jurisdiction
over a non -party, upon the erroneous belief that he remained a party, is acting
in the complete absence of authority and jurisdiction. This Court, en banc, has
previously found that when “the writ of mandamus is sought from an
appellate court to confine a trial court to a lawful exercise of its prescribed
authority, the court should issue the writ almost as a matter of course.
United State v. Denson. 603 F.2d 1143,1145 (5th Cir. 1979)(en banc).

Now that Mr. Sammons is no longer "a plaintiff' in this
case, the Rule 41(d) sanction and Rule 41(d) stay, both
directed only and solely at Mr. Sammons, are moot.
By its express and clear language, Rule 41(d) only applies to a plaintiff.
Mr. Sammons is no longer "a plaintiff’ and therefore neither Rule 41(d) nor a
Rule 41(d) stay apply any longer to him nor to this case.
11

35T

Dr. Sammons is the only "plaintiff' left in this case, and the district court
expressly found that she was not subject to Rule 41(d).
Since there is no longer "a plaintiff in the case to which Rule 41(d)
even applies, how could the 2018 Rule 41(d) stay not have been rendered
moot by the withdrawal of the only "plaintiff in the case subject to Rule
41(d), Mr. Sammons?
The Rule 41(d) stay order must now be deemed moot as a matter of law.
Mr. Sammons, and only Mr. Sammons, was found responsible for, and liable
for, $26,726 in Rule 41(d) "costs." Dr. Sammons was explicitly found by the
district court to not be liable or responsible for any of those prior "costs." The
original 2018 Rule 41(d) stay order stated that Mr. Sammons and his claims
could only proceed if Mr. Sammons paid $26,726 to the Defendants. That
result is now impossible. Even if Mr. Sammons paid the $26,726 now, he and
his claims have already been dismissed pursuant to FRCP, Rule 41(a)(1) (A)(i),
and effectively with prejudice pursuant Rule 41(a)(1)(B) - whether or not
Mr. Sammons pays the $26,726, now or ever, he can never litigate his claims
against the defendants again, not in this court or any other court. See
applicable Rule 41(a)(1)(B)(voluntary dismissal deemed "with prejudice").
Dr. Sammons agreed with the district court's 2018 Rule 41(d) order,
insofar as it explicitly held that: (a) Mr. Sammons, and Mr. Sammons alone,
12

*

was liable for Rule 41(d) costs, and (b) Dr. Sammons was not liable for any
Rule 41(d) costs. No party objected to that finding and conclusion.
It should be noted that the only purpose of Rule 41(d) in this case was
to spare the defendants the costs of further litigation as to Mr. Sammons'
claims unless Mr. Sammons paid the prior litigation costs required by the
2018 Rule 41(d) order. Now that Mr. Sammons and his claims have been
dismissed (effectively with prejudice) the defendants will never have to defend
against Mr. Sammons' claims again - ever. That is all that the Defendants were
entitled to under Rule 41(d) and that is all that Rule 41(d) was meant to
achieve.
A Non-Rule 41(d) Stay Would Be "Immoderate"
and of "Indefinite Duration" Here
Of course, even if Rule 41(d) clearly no longer applies to any "plaintiff’
still in this case, the district court could have continued the stay as some kind
of non-Rule 41(d) stay under its inherent authority for a non-Rule 41(d)
reason.
A court's authority includes the "general discretionary power to stay
proceedings before it in the control of its docket and in the interests of
justice." McKnight v. Blanchard. 667 F.2d 477, 479 (5th Cir. 1982). But this
authority is not unbounded, and its proper use "calls for the exercise of

13

57

judgment, which must weigh competing interests and maintain an even
balance." Wedgeworth v. Fibreboard Corn.. 706 F.2d 541, 545 (5th Cir. 1983]
(quoting Landis v. N. Am. Co.. 299 U.S. 248, 254-55 (1936)).
The only possible purpose here for a non-Rule 41(d) stay would be to
harm the completely innocent Dr. Sammons in an effort to coerce non-party
Mr. Sammons to pay the Defendants $26,726 - the problem is that this tactic
tramples the separate and individual constitutional rights of the innocent
Dr. Sammons - and lacks any authority under any rule (now that Rule 41(d) is
inapplicable) or statute.
The courts are free to punish Mr. Sammons as they deem fit - sanctions,
contempt, fines, imprisonment - whatever fits his crime - but courts are not
free to punish his completely innocent wife for no other reason than she is
married to Mr. Sammons - or to harm Dr. Sammons in an effort to coerce
non-party Mr. Sammons to pay the defendants $26,726. The U.S. Constitution
gives Dr. Sammons her own separate and personal rights and protections
without regard to sex or marital status, including her right to access to the
courts under the First, Fifth, and Seventh Amendments thereto.
A wife cannot be imprisoned for the crimes committed by her husband;
a wife cannot be fined for the crimes of her husband; a wife cannot be denied
the right to vote because her husband is a felon; and a wife cannot be denied
14

36

her constitutional right to access to the courts to litigate her own independent
an d personal claims because of any judicial wrong done by her husband.
Dr. Sammons’s right to access to the courts under the First, Fifth, and
Seventh Amendments to the U.S. Constitution, regardless of marital status, are
separate and independent of the claims by Mr. Sammons, and such
constitutional rights of Dr. Sammons cannot be vitiated by any wrongs or
decisions by Mr. Sammons alone. Simply stated, Dr. Sammons is her own
person with her own constitutional rights.
Finally, the harm being suffered by Dr. Sammons by what is now an
"immoderate" non-Rule 41(d) stay of "indefinite duration" is very real.
Staying this case indefinitely, awaiting action by a non-party which will never
come, continues to erode Dr. Sammons’ ability to ever prove her own federal
securities fraud claims against the defendants. With the passage of time,
memories will fade, litigation costs will balloon, and resolve will dwindle.
These factors will make it difficult for Dr. Sammons to retool for litigation
when, and if, her own claims are ever allowed to proceed.
For all these reasons, Dr. Sammons has a compelling interest in
proceeding with her claims without further unreasonable and pointless delay,
as is her constitutional right under Landis and Colorado River.

15

"Non-Rule 41(d)Stays of Indefinite
Duration Will Be Reversed"
In Landis v. N. Am. Co.. 299 U.S. 248, 254-55 (1936), the Supreme Court
held that "immoderate” stays would be reversed. Citing Landis, the Fifth
Circuit has explicitly held that "stay orders will be reversed when they are
found to be immoderate or of an indefinite duration." McKnight v. Blanchard.
667 F.2d 477,479 (5th Cir.1982); accord Wedgeworth v. Fibreboard Corp..
706 F.2d 541, 545 (5th Cir. 1983).
Admittedly, this Court seems to have recently held that Rule 41(d)
allows stays which are both "immoderate" and "of indefinite duration" under
some circumstances. That even if a Rule 41(d) sanction is imposed upon only
one of multiple plaintiffs, that the ability of any of the other innocent plaintiffs
to pay the Rule 41(d) sanction for the guilty plaintiff - which would lift the
Rule 41(d) stay2 - justifies a Rule 41(d) stay foryears which would otherwise

2 Dr. Sammons would have been foolish to pay the Rule 41(d) $26,726
fine for Mr. Sammons. Based upon the pro se reversal rate in the Fifth Circuit
- and the scholarly Rule 41(d) analysis by the district court - Dr. Sammons
would only have a 1% chance of reversing the Rule 41(d) sanction against
Mr. Sammons and recovering any of the $26,726 in an appeal from a final
judgment. So even if Dr. Sammons won this case for federal securities fraud
against the Defendants, she could never have recovered any of the $26,726
had she (foolishly) decided to pay the $26,726 fine for Mr. Sammons.
Certainly no competent attorney would ever have advised her to do so.
16

qo

be unlawful as "immoderate" and "of indefinite duration." Sammons w
Economou. Fifth Circuit No. 19-51097 (2/18/2020)(summarily dismissing
such arguments regarding a Rule 41(d) stay well into its second year with no
end in sight).
But even if the prior panel of this Court was correct in creating a broad
exception to Landis. McKnight. and Wedgeworth. for Rule 41(d) stays, this is
no longer a Rule 41(d) stay. Rule 41(d) by its explicit language only applies to
a "plaintiff’ in the case - the only "plaintiff’ left in this case is Dr. Sammons and the district court has already held that Rule 41(d) does not even apply to
her - so, this now non-Rule 41(d) stay, no longer being authorized by Rule
41(d) as a Rule 41(d) stay, must be considered under the normal stay
standards of Landis. McKnight. and Wedgeworth. which proscribe stays which
are "immoderate" or of "indefinite duration."
A non-Rule 41(d) stay going forward as to Dr. Sammons would be
"immoderate" because there is no authority outside of Rule 41(d) to use a stay
to coerce payment of $26,726 from a non-party (Mr. Sammons) to the
defendants, and to the extreme detriment of the only "plaintiff' left in the case
- Dr. Sammons.
A non-Rule 41(d) stay as to Dr. Sammons is "indefinite" if it can never
be reasonably expected to end. Mr. Sammons can no longer pay the
17

41

$26,726 to the defendants and resume his claims in this case. Pursuant to
Rule 41 (a)(1) (A] (0 Mr. Sammons is no longer "a plaintiff "or party in this case
- and his claims have been permanently and effectively dismissed with
prejudice pursuant to Rule 41(a)(1)(B).
A non-Rule 41(d) stay in this case would achieve nothing but wrongfully
deprive Dr. Sammons — the only plaintiff left in this case -of her constitutional
right to access to the courts - again, as the only remaining plaintiff in this case.
A WRIT OF MANDAMUS IS THE ONLY
MEANS TO OBTAIN RELIEF
As to the request of Mr. Sammons for mandamus relief, FRCP, Rule
41(a)(1) (A) (i) gives a plaintiff the absolute right to withdraw from a case
where neither an answer nor motion for summary judgment has been filed.
That is a right not subject to the discretion of the district court - Rule
41(a)(1)(A) (i) provides an absolute statutory right to withdraw from the
entire judicial process to which a plaintiff must ordinarily willingly subject
himself as a plaintiff.
The right involved - the right not to be subject to the court's jurisdiction
- the right not to be subject to motion practice and discovery - simply is not
subject to the discretion of the district court where Rule 41 (a)(1) (A) (i)
applies.

18

42.

Therefore, as to Mr. Sammons’ request for relief, where the district
court is blatantly exercising authority and jurisdiction over Mr. Sammons
which the district court simply does not have, erroneously believing
Mr. Sammons is still "a plaintiff’ in this case, mandamus is appropriate.
As to the request of Dr. Sammons for mandamus relief, this Court has
recently held that a Rule 41(d) stay is not reviewable via appeal or mandamus
even if "immoderate" and "indefinite." But this broad exception to Landis,
McKnight. and Wedgeworth. which all proscribe "immoderate" and
"indefinite" stays - an exception based upon the fact that any innocent
plaintiff can lift a Rule 41(d) stay at any time by paying the Rule 41(d)
monetary sanction assessed against another guilty plaintiff for that guilty
someone else - only applies to Rule 41(d) cases. This is no longer a Rule 41(d)
case.
A Rule 41(d) case requires at least one "plaintiff' be subject to
Rule 41(d). There is none in this case - at least not any longer. Dr. Sammons
is the only remaining "plaintiff' in the case, and the district court has explicitly
held that Rule 41(d) did not apply to Dr. Sammons.
Other than perhaps for a Rule 41(d) stay, Landis, McKnight, and
Wedgeworth still proscribe "immoderate" and "indefinite" stays.
This non-Rule 41(d) stay is "immoderate" as it is not authorized by
19

M3

Rule 41(d) any longer nor any other rule or statute, and has no purpose other
than to attempt to coerce payment of $26,726 from a non-party to the
defendants - an action not only unauthorized by any federal rule or statute,
but which is in apparent disregard of the constitutional right to access to the
courts of the only plaintiff left in this case - Dr. Sammons.
This non-Rule 41(d) stay is "indefinite” because, not only is this stay
well into its second year (with no end in sight), it requires a non-party to pay
the Defendants $27,627. The stay is not so much "indefinite" as "infinite.”
Mr. Sammons abandoned his claims in this case when he voluntarily
withdrew, knowing full well that his withdrawal was effectively "with
prejudice" pursuant to Rule 41(a)(1)(B). Mr. Sammons, as a non-party,
forever to be a non-party, has absolutely nothing to gain by giving away
$27,627 to the defendants at this point.
Therefore, mandamus is the only possible means by which Dr. Sammons
can ever proceed with her case and such mandamus is necessary to ensure
"the virtually unflagging obligation of the federal courts to exercise the
jurisdiction given to them." Colorado River Water Conservation District v.
United States. 424 U.S. 800, 817 (1976).

20

4*4

ISSUANCE OF THE WRIT IS APPROPRIATE HERE
"The clearest traditional office of mandamus and prohibition has been
to control jurisdictional excesses, whether the lower court has acted without
power (as to Mr. Sammons and his claims) or has refused to act when it had
no power to refuse (as to Dr. Sammons and her claims)." 16 Charles Alan
Wright et al., Fed. Prac. & Proc. 3933.1 (3rd Ed.). Pulliam v. Allen, 466 U.S. 522,
532-33 (1984)("to prevent [a judge] from exceeding his jurisdiction or to
require him to exercise it”).
Mr. Sammons is entitled to mandamus relief because the trial court, in
believing it has discretion over whether Mr. Sammons did or did not remain in
the case, is illegally exercising authority and jurisdiction over Mr. Sammons
which the district court simply does not possess - Mr. Sammons is now a
non -party and the district court lacks the authority and jurisdiction over him
reserved only for a party in the case.
Under FRCP, Rule 41(a)(l)(A)(i), the district court had no "discretion"
to ignore the automatic statutory withdrawal of right exercised by
Mr. Sammons, and therefore mandamus is appropriate. Inre Digicon Marine,
Inc.. 966 F.2d 158,160 (5th Cir 1992)(granting mandamus because "the district
court had no discretion”); In re Estelle, 516 F.2d 480, 483 (5th Cir. 1975)
("prevent a trial court from making a discretionary decision where a statute
21

effectively removes the decision from the realm of discretion"); SEC v.
Krentzman. 397 F.2d 55, 59 (5th Cir. 1968) (the district judge "exercised what
he thought to be a discretionary power which he did not possess").
Dr. Sammons is entitled to mandamus to lift the Rule 41(d) stay
continued by the district court. By its clear language FRCP, Rule 41(d), and a
Rule 41(d) stay, can only apply to "a plaintiff' in the case subject to Rule 41(d).
Dr. Sammons is now the only "plaintiff' in this case and the district court has
already explicitly held that Dr. Sammons is not subject to Rule 41(d). And if
Rule 41(d) no longer applies to the case then neither can the Rule 41(d) stay.
Even if Rule 41(d) allows immoderate and indefinite stays, otherwise
illegal under Landis. McKnight. and Wedgeworth. the district court does not
have the discretion to invoke Rule 41(d) to apply such broad stay exceptions
where Rule 41(d) simply does not apply.
Outside of the authority of Rule 41(d), a district court cannot put a sole
remaining plaintiff, an innocent plaintiff, "effectively out of court" forever
because a single guilty plaintiff, no longer even a plaintiff in the case, refused
to pay court ordered monetary sanctions before he unilaterally withdrew
from the case (exercising his absolute statutory right to so withdraw).
Therefore, because the district court is refusing to exercise "the virtually
unflagging obligation of the federal courts to exercise the jurisdiction given to
22

them,” Colorado River Water Conservation District v. United States. 424 U.S.
800, 817 (1976), as to the completely innocent and sole plaintiff left in this
case, mandamus is necessary to compel the district court to reopen its doors
to Dr. Sammons so that her claims of federal securities fraud against the
defendants may go forward as is her constitutional right, id.
CONCLUSION
A writ of mandamus should issue requiring the district court to
(a) recognize the dismissal of Mr. Sammons from the case as is required by
FRCP, Rule 41 (a)(1) (A) (i), and (b) vacate the Rule 41(d) stay as there is no
"plaintiff' remaining in the case subject to Rule 41(d) and therefore
Rule 41(d) no longer applies to this case or authorizes a Rule 41(d) stay.

Respectfully submitted,

Elena Sammons, MD, pro se

/

Michael Sammons
1013 10th St #B
Galveston, TX 77550
210-858-6199
michaelsammons@vahoo.com
23

m

CERTIFICATE OF FILING AND SERVICE
I, Michael Sammons, hereby certify that, on March 15, 2020, this
Petitionwas served by USPS and electronically (email) on:

U.S. District Judge Fred Biery

c/o U.S. District Court Clerk

drubins@orrick.com
Daniel Rubins
efua@orrick.com
Emmanual Fua
Orrick, Herrington & Sutcliffe, LLP
51 West 52nd Street
New York, NY 10019
Steven J. Fink
100 Wall Street, 15th Floor
New York, NY 10005

steven.fink@ sj finkpllc.com

Bruce G. Paulsen
Brian P. Maloney
Seward & Kissel LLP
One Battery Park Plaza
New York, NY 10004

paulsen@sewkis.com
maloney@sewkis.com

Michael D. Bernard
Melanie Lynn Fry
Dykema Cox Smith
112 E. Pecan Street, Suite 1800
San Antonio, Texas 78205

mbernard@dykema.com
mfry@dykema.com

and four copies have been mailed to the Court for approval and filing.
/

Michael Sammons

24

CERTIFICATE OF COMPLIANCE
1. This petition complies with the type-volume limitation of FRAP Rule
32(a)(7)(B) because it contains 4,417 words, as determined by the
word-count function of Microsoft Word 2010.
2. This brief complies with the typeface requirements of FRAP Rule
32(a)(5) and the type style requirements of FRAP Rule 32(a)(6) because
it has been prepared in a monospaced typeface using Microsoft Word
2010 in 14-point Cambria font.
Michael Sammons

25

Exhibit A
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
Elena Sammons,
Michael Sammons,
Plaintiffs,
v.

Case No. SA18-CA-0194-FB
JURY DEMAND

GEORGE ECONOMOU,
DRYSHIPS, INC.,
Defendants.
NOTICE OF DISMISSAL BY MICHAEL SAMMONS
Plaintiff Michael Sammons, pro se, hereby gives notice that he hereby withdraws
from this case and is dismissing all of his claims, pursuant to FRCP, Rule 41 (a)(1) (A].

Respectfully submitted:

Michael Sammons, pro se
1013 10th St #B
Galveston, TX 775505
210-858-6199
michaelsammons@yahoo.com

Certificate of Service
A true and exact copy was mailed or emailed to all parties this 18th day of February,
2020.

Michael Sammons
1

5~o

Exhibit D

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
Elena Sammons,
Plaintiff,
v.

Case No. SA18-CA-0194-FB
JURY DEMAND

GEORGE ECONOMOU,
DRYSHIPS, INC.,
Defendants.
Reply of Plaintiff Elena Sammons
To Opposition to Motion to Lift Stay
Plaintiff Elena Sammons, pro se, ("Dr. Sammons") would reply to the Defendants'
opposition to the motion to lift stay as follows:
The Greek Defendants, through numerous instances of federal securities fraud,
defrauded hundreds of millions of dollars from unsuspecting American investors. See
Silverherg v. DrvShips Inc.. No. 2:17-cv-4547 (E.D.N.Y.). Defendant Dryships CEO George
Economou was quoted as saying that "Americans are the dumbest investors around ..."
Complaint, #11. Perhaps so, but as this case, as well as the Silverherg case, show, defense
attorneys can only keep justice at bay for so long - as this and the Silverherg case prove,
justice marches on and the inevitable jury trials have now appeared on the distant horizon.
As to Defendants' opposition, the Plaintiff would show that ex-co-plaintiff Michael
Sammons and his claims have been dismissed from the case with prejudice pursuant to
FRCP, Rule 41 (a)(1)(A)(i) and Rule 41(a)(1)(B); therefore, the Rule 41(d) order and
related stay, both involving solely Mr. Sammons, have been rendered moot.
Rule 41(a)(1)(A) explicitly states "the plaintiff may dismiss an action without a court order
by filing: (i) a notice of dismissal before the opposing party serves either an answer or a motion for
summary judgment..."
It is undisputed that no Defendant filed "either an answer or a motion for summary
judgment." Defendants would read into the clear and unambiguous rule the following:
"unless the plaintiff has failed to comply with any pending order of the Court." The rule is
explicitly to the contrary. To paraphrase Justice Frankfurter’s timeless advice on statutory
construction, "Read the rule. Read the rule. Read the rule."
1

b\

Once a notice of voluntary dismissal is filed, the district court in which the action is
pending loses jurisdiction and cannot exercise discretion with respect to the terms and
conditions of the dismissal. “The action is terminated at that point, as if no action had ever
been filed." Rnzellev. Lowe. No. SA-16-CV-489-XR (W.D. Texas - San Antonio), adopting
Commercial Space Mgmt. Co. v. Boeing Co.. 193 F.3d 1074,1076 and 1080 (9th Cir 1999).
"The action (as to Mr. Sammons) is terminated at that point, as if no action
had ever been filed.” id. Simply stated it is as if Mr. Sammons had never been a party to
this case at all. And any orders as to Mr. Sammons are rendered moot "as if no action had
ever been filed." id.
So let us assume Mr. Sammons had never been listed as a plaintiff in this case. Of
course, the Defendants would have sought a Rule 41(d) order and stay as to Dr. Sammons.
But, as this Court has already concluded, Dr. Sammons is not subject to Rule 41(d) nor
responsible for nor liable for, Rule 41(d) costs. Dkt. 56, pg. 14 ("Accordingly, the Court
should impose the costs on Mr. Sammons only.")1 So, had Mr. Sammons never been a
plaintiff in this case at all (the effect of his dismissal with prejudice), then the Rule 41(d)
motion would have been denied and no Rule 41(d) stay ever entered.
Finally it should be noted that the only purpose of Rule 41(d) in this case was to
spare the defendants the costs of further litigation as to Mr. Sammons’s claims unless
Mr. Sammons paid the prior litigation costs required by the Rule 41(d) order. Now that
Mr. Sammons and his claims have been dismissed with prejudice the Defendants will never

1
Dr. (Mrs.) Sammons would be foolish to pay the Rule 41(d) $26,726 fine for
Mr. Sammons because she could not get the Rule 41(d) order reversed on appeal and
therefore could not recover any of the $26,726 on any appeal from a final judgment. Based
upon the pro se reversal rate in the Fifth Circuit, Dr. (Mrs.) Sammons would only have a 1%
chance of reversing the Rule 41(d) sanction against Mr. Sammons and recovering the
$26,726. So even if Dr. (Mrs.) Sammons won this case for federal securities fraud against
the Appellees, she could never recover the $26,726 if she (foolishly) decided to pay the
$26,726 fine for Mr. Sammons. Certainly no competent attorney would ever advise her to
do so.

2

fTx

have to defend against Mr. Sammons’ claims again - ever. That is all that the Defendants
were entitled to under Rule 41(d) and that is all that Rule 41(d) was meant to achieve.2
WHEREFORE, given "the virtually unflagging obligation of the federal courts to
exercise the jurisdiction given to them," Colorado River Water Conservation Districts
United States. 424 U.S. 800, 817 (1976), the stay as to the only plaintiff left in this case Dr. (Mrs.) Sammons - should be lifted so that her claims (and only her claims) may proceed
to a jury trial.

Respectfully submitted:

Elena Sammons, pro se
1013 10th St #B
Galveston, TX 77550
210-858-6199
michaelsammons@yahoo.com

Certificate of Service
A true and exact copy was mailed or emailed to all parties this 29th day of February,
2020.

Elena Sammons

2 Mr. Sammons owned some shares of defendant Dryships only in his name.
Mrs. Sammons owned some shares of defendant Dryships only in her name. And
some shares were owned jointly. The dismissal with prejudice as to Mr. Sammons applies
to all shares owned solely by Mr. Sammons, and one half the shares owned jointly.
3

^3

Exhibit C

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
ELENA SAMMONS and MICHAEL
SAMMONS,
Plaintiffs,
v.

GEORGE ECONOMOU and DRYSHIPS
INC.,
Defendants.

§
§
§
§
§
§

C.A. No. SA-18-cv-194-FB (HJB)

§
§
§
§

DEFENDANTS’ OPPOSITION TO PLAINTIFF
ELENA SAMMONS’S SECOND MOTION TO LIFT STAY
Defendants George Economou and DryShips Inc. (collectively, “Defendants”) respectfully
submit this opposition to the second Motion to Lift Stay (“Motion”) filed by Plaintiff Elena
Sammons (“Dr. Sammons”) [ECF No. 104], The Court should summarily deny the Motion, just
as it denied Dr. Sammons’s prior motion to lift the Court’s stay of this case. ECF Nos. 96, 98.
PRELIMINARY STATEMENT
This case has been stayed and administratively closed since October 31, 2018, when the
Court entered an order requiring Plaintiff Michael Sammons (“Mr. Sammons”) to pay certain costs
(the “Costs Award”) that the Defendants incurred in connection with his voluntary dismissal of an
identical case that he had previously brought in the High Court of the Republic of the Marshall
Islands (“RMI Court”). ECF Nos. 73 (“Stay Order”) and 75 (“Closure Order,” and together with
the Stay Order, the “Stay Orders”).1 Rather than satisfy the Costs Award, the Sammonses have

i

In light of the Sammonses’ repeated efforts to circumvent the stay, and the instances in which
they have simply ignored it, Defendants are serving them, contemporaneous with the filing of
this Opposition, with a motion for a filing injunction pursuant to FRCP 11 and the Court’s
inherent power. Specifically, Defendants seek an order precluding the Sammonses from making
future filings in this action until Mr. Sammons has satisfied the Costs Award. That motion will
1

54

multiplied these proceedings through repeated motions in this Court seeking to re-litigate the Stay
Orders, as well as two unsuccessful efforts to appeal to the Fifth Circuit. On February 18, 2020,
the Fifth Circuit dismissed the latest appeal, which challenged this Court’s refusal to rewrite its
Stay Order so as to exclude Dr. Sammons from its scope.
The Fifth Circuit’s opinion left the Sammonses with a clear directive: if either or both of
them wishes to proceed with this litigation, they must first satisfy the Costs Award. Sammons v.
Economou, No. 19-51097, Order at 2 (5th Cir. Feb. 18, 2020) (“Sammons IF) (“The Sammons[es]
have the ability to lift the stay by paying the costs as the district court ordered.”). Rather than
comply, the Sammonses are back before this Court with yet another stratagem: Mr. Sammons has
purported to voluntarily dismiss himself from the case (again) under Rule 41(a)(1)(A), and Dr.
Sammons has moved (again) to lift the stay.
This latest attempt to circumvent the Stay Orders should be rejected for two primary
reasons. First, the Motion is at best premature because the Fifth Circuit has not yet issued its
mandate. Second, the Court should not lift the stay because the Court-imposed condition to doing
so has not been satisfied. Indeed, it is the law of the case and mandate of the Fifth Circuit that the
Costs Award must be satisfied if either of the Sammonses is to continue litigating this case, and
Mr. Sammons’s purported withdrawal from the case does not change that. As the Fifth Circuit has
now twice made clear, and as the Sammonses have previously acknowledged, the Stay Orders
mean that this case cannot proceed, with respect to either plaintiff, unless and until the Costs Award
is satisfied. The Motion should be denied.

be filed 21 days after service unless Dr. Sammons withdraws her current motion to lift the stay in
the meantime.
2

5T

RELEVANT PROCEDURAL HISTORY
Plaintiffs commenced this action the day after Mr. Sammons voluntarily dismissed a
virtually identical action that the Sammonses had prosecuted against Defendants in the RMI Court
for over eight months (“RMI Action”). ECF No. 56 (“R&R”) at 4, 7, 9. In litigating their claims
in the RMI Action, Plaintiffs caused Defendants to incur $635,150.62 in attorneys’ fees and
$46,680.00 in costs. Id. at 4.
Mr. Sammons originally brought the RMI Action exclusively on his own behalf; Dr.
Sammons was not named as a plaintiff in the original complaint that he filed in July 2017. R&R
at 2. Then, “[o]n August 9, 2017 ..., Mr. Sammons filed a First Amended Complaint, adding
Elena Sammons as a plaintiff. . . .” Id. About two weeks later, Plaintiffs filed a “Notice of
Transfer of Interest” in which they represented that “for consideration received on August 21, 2017
Elena Sammons transferred all ownership and litigation rights regarding the 19,000 shares of
DryShips they jointly owned on July 20, 2017 which are involved in this case to Michael
Sammons.” ECF No. 8^8. The RMI Court accordingly entered a Sua Sponte Order Dismissing
Plaintiff Elena Sammons. Id. Mr. Sammons subsequently voluntarily dismissed the RMI Action
in February 2018, after the RMI Court indicated that it intended to grant Defendants’ motions to
dismiss that action. R&R at 3-4.
The Sammonses then re-filed the lawsuit in this Court, naming both Michael and Elena
Sammons as Plaintiffs - notwithstanding their prior representation to the RMI Court that Dr.
Sammons no longer had any interest in the stock that is the subject of their claims. Dr. Sammons
has participated in this case sporadically; she has joined in some, but not all of Mr. Sammons’s
filings. See, e.g., ECF No. 59 (Objection to R&R signed only by Mr. Sammons).

3

5b

Faced with the prospect of re-litigating the same claims they had already been on the verge
of defeating in the RMI, Defendants filed a motion for costs and a stay under Rule 41(d). ECF
No. 8 (the “Costs Motion”). In opposition, Plaintiffs argued, inter alia, that “Rule 41(d) does not
even apply to [Dr. Sammons],” such that the case should not be stayed against her. ECF No. 26
at 11-12. Plaintiffs reasoned that Dr. Sammons was only a party to the RMI Action for “nine
business days” and that Mr. Sammons was responsible for 99% of Defendants’ costs. Id.
Magistrate Judge Bemporad rejected Plaintiffs’ argument that the stay should apply only
to Mr. Sammons, not Dr. Sammons, reasoning that “the plain language of [Rule 41(d)] permits a
stay of the entire case and does not require or even permit the Court to parcel out a stay as to
specific litigants or specific claims.” R&R at 14. Concluding that the requirements of Rule 41(d)
were otherwise satisfied under these facts, Magistrate Judge Bemporad recommended that the
Court award Defendants $26,725.99 in costs and stay these proceedings with respect to both
Plaintiffs until Mr. Sammons pays Defendants those costs. Id. at 15. Mr. Sammons alone objected
to the R&R. ECF No. 72. Dr. Sammons did not object to the Magistrate Judge’s conclusion that
the stay would apply to the entire case, or on any other grounds.
The Court issued the Stay Order on October 31, 2018. ECF No. 73. The Stay Order
adopted the R&R and granted Defendants’ Costs Motion in part such that the Court ordered Mr.
Sammons to pay Defendants $26,725.99. The Court also stayed the case in its entirety - as to both
Mr. and Dr. Sammons - until such time as Mr. Sammons satisfies the award. Id. at 2 (“[T]his case
is STAYED until plaintiff satisfies the cost award”). In addition, the Court issued the Closure
Order, administratively closing this action pending Mr. Sammons’s satisfaction of the costs award.
ECF No. 75 (“[T]he case is ADMINISTRATIVELY CLOSED pending either side’s notification
that plaintiff has satisfied the cost award.”).

4

57

Plaintiffs appealed the Stay Orders to the Fifth Circuit, where they sought to challenge this
Court’s inclusion of certain attorney expenses in the Costs Award. Sammons v. Economou, No.
18-50932, Doc. 00514776673 (“Sammons I, Appellants’ Br.”) (5th Cir. Dec. 28, 2018). In their
effort to manufacture appellate jurisdiction over the nonfinal Stay Orders, Plaintiffs represented to
the Fifth Circuit: “since, as the district court correctly assumed Mr. Sammons would never pay
the illegally ordered $26,726 in prior suit ‘nontaxable attorney expenses,’ the case as to Mrs.
Sammons was destined to remain ‘administratively closed’ forever as well.” Id. at 28 (bold
face type added; italics in original); see also id., Doc. 00514825308 (^‘Sammons I, Reply Br.”) at
11, 15 (“Without this appeal, the case will simply remain ‘administratively closed’ forever”)
(italics in original).

The Fifth Circuit rejected Plaintiffs’ request for mandamus relief and

dismissed their appeal for lack of jurisdiction on October 10, 2019. Sammons v. Economou, 940
F.3d 183, 187-88 (5th Cir. 2019) (“Sammons E).

The Fifth Circuit held that, “[ajlthough

appellants claim that their case has been effectively dismissed based on the administrative closure,
this results entirely from their objection to, and consequent unwillingness to pay, the ordered
costs.” Id. at 187.
In addition to appealing the Stay Orders, Plaintiffs filed several motions with this Court,
including a motion for certification of an interlocutory appeal (“Certification Motion”) and a “Rule
62.1 Motion for Indicative Ruling.” ECF Nos. 78, 88. As part of those motions, Plaintiffs
requested that the Court “add a Dismissal with Prejudice,” in an effort to convert the stay into a
final, appealable order. ECF No. 78 at 3; see also id. at 1 n.l; ECF No. 88 at 1. Plaintiffs repeated
in their Certification Motion that the case would “NEVER proceed” unless the Stay Orders were
vacated because “Plaintiffs would NEVER agree to pay” the Costs Award. ECF No. 78 at 2. The
Court denied Plaintiffs’ motions. ECF No. 85 at 2; ECF No. 91.

5

$e

Mere days after the Fifth Circuit issued its mandate in respect of the Sammonses’ first
appeal, Dr. Sammons filed her first motion to lift the stay, through which she yet again sought an
order dismissing Mr. Sammons from the case. ECF No. 96. The Court denied Dr. Sammons s
motion on November 22, 2019. ECF No. 98.
Less than half an hour after the Court’s denial, Dr. Sammons filed another notice of appeal.
ECF No. 100. In the Fifth Circuit, Defendants moved to dismiss Dr. Sammons’s appeal, arguing
lack of appellate jurisdiction and waiver.2 Dr. Sammons opposed that motion, arguing, among
other things, that the stay had “evolved” into one of “indefinite duration due to Mr. Sammons s
refusal to satisfy the Costs Order, and that “Mrs. Sammons’s own claims . . . have been ‘deep
sixed’ under the pointless pretext that the district court should wait forever before allowing Mrs.
Sammons’s [sic.] her day in court (until Mr. Sammons pays a fine which he obviously never
intends to pay).”

Sammons II, Doc. 00515279719 (5th Cir. Jan. 21, 2020) (“Sammons II,

Appellant’s Response to Mot. to Dismiss”) at 12. The Fifth Circuit granted Defendants’ motion
and dismissed Dr. Sammons’s appeal by an order filed on February 18, 2020, again for lack of
appellate jurisdiction and failure to demonstrate entitlement to mandamus relief. Sammons II,
Order at 2. As reflected on the Fifth Circuit’s docket, that court will issue its mandate on March
11,2020.
A few hours after the Fifth Circuit dismissed Dr. Sammons’s appeal, Mr. Sammons filed a
notice of voluntary dismissal in this Court under Rule 41(a)(1)(A). ECF No. 103. The following
day, Dr. Sammons served on the Defendants her current motion to lift the stay of these
proceedings. ECF No. 104. Despite the fact that she has repeatedly represented to both this Court

2 Defendants also sought monetary sanctions against Dr. Sammons and a filing injunction against
both Sammonses in light of Dr. Sammons’s frivolous appeal and both Sammonses’ vexatious
litigation conduct. The Fifth Circuit denied the request without comment.
6

and the Fifth Circuit that this case would “«ever” move forward unless the Stay Orders were
vacated, Dr. Sammons now argues that the Stay Orders are moot because Mr. Sammons has
unilaterally purported to remove himself from this case without paying the Costs Award. Id.
ARGUMENT
I.

Dr. Sammons’s Motion Is Procedurallv Improper.
The Court lacks jurisdiction to hear Dr. Sammons’s Motion given that the Fifth Circuit has

not yet issued its mandate in respect of her latest appeal. See, e.g., United States v. Ayika, No. EP09-CR-660-FM, 2014 WL 1237478, at *3 (W.D. Tex. Mar. 25, 2014), aff’d, 584 F. App’x 239
(5th Cir. 2014) (“[A] district court does not reacquire jurisdiction until the court of appeals has
issued its mandate”). As the Fifth Circuit has indicated that it will not issue its mandate until
March 11, 2020, the Court lacks jurisdiction to rule on her motion at this time. See id.; see also
United States v. Cook, 592 F.2d 877, 880 (5th Cir. 1979). Thus, the Court should deny the motion,
or at a minimum defer ruling until after the Fifth Circuit issues its mandate.
II.

The Court Should Deny The Motion Because The Costs Award Has Not Been
Satisfied.
If and when the Court reaches the merits, it should deny Dr. Sammons’s motion to lift the

stay because the Stay Orders are clear that this case is stayed and administratively closed until Mr.
Sammons satisfies the Costs Award. ECF No. 73 (“[Tjhis case is STAYED until plaintiff satisfies
the cost award”); ECF No. 75 (“[T]he case is ADMINISTRATIVELY CLOSED pending either
side’s notification that plaintiff has satisfied the cost award.”). It is undisputed that the Costs
Award remains unsatisfied, and thus the stay should remain in place whether or not Mr. Sammons
is still a party to this action.3

3 Dr. Sammons’s Motion should also be denied as an untimely and ill-founded motion for
reconsideration through which she is seeking the same relief she sought in her prior lift-stay
motion: dismiss Mr. Sammons from the case and allow her to proceed. ECF No. 96. This Court
7

(oO

Indeed, both this Court and the Fifth Circuit have made clear that if one or both of the
Sammonses want to litigate this case, then the Costs Award must be satisfied. Sammons II, Order
at 2 (“The Sammons[es] have the ability to lift the stay by paying the costs as the district court
ordered.”); Sammons I, 940 F.3d at 187; ECF Nos. 73, 75. That is the law of the case, and, indeed,
the mandate of the Fifth Circuit. See United States v. Pineiro, 470 F.3d 200, 205 (5th Cir. 2006)
(“The mandate rule . .. prohibits a district court on remand from reexamining an issue of law or
fact previously decided on appeal and not resubmitted to the trial court on remand.

This

prohibition covers issues decided both expressly and by necessary implication, and reflects the
jurisprudential policy that once an issue is litigated and decided, ‘that should be the end of the
matter.’”).
Moreover, Mr. Sammons’s filing of a notice of voluntary dismissal pursuant to Rule
41(a)(1)(A) does not “moot” the Stay Orders as Dr. Sammons contends. ECF Nos. 103, 104. First,
as a threshold matter, Mr. Sammons’s filing should not be deemed effective unless and until he
satisfies the Costs Award, given that the case is stayed and administratively closed pending such
payment. Second, the Stay Order’s terms are plain; this case is stayed until the Costs Award is
satisfied. Mr. Sammons’s purported withdrawal does nothing to “moot” or otherwise change the
terms of that Order. To hold otherwise would defeat Rule 41(d)’s purpose of “deter[ring] forum
shopping and vexatious litigation.” See Portillo v. Cunningham, 872 F.3d 728, 739 (5th Cir. 2017)

already denied that motion on November 22, 2019, ECF No. 98, and the Fifth Circuit did not
disturb that ruling on appeal. See Sammons II, Order at 2 (dismissing appeal and denying
mandamus relief). Moreover, there has been no material change in the facts or applicable law.
Accordingly, the Court should decline to hear Dr. Sammons’ effort to seek that same relief again.
See United States ex rel. Harman v. Trinity Indus., Inc., No. 2:12-cv-00089-JRG, 2014 WL
4652021, at *2 (E.D. Tex. Sept. 18, 2014) (construing plaintiffs’ motion as one for reconsideration
as it “merely repealed] the same arguments” the court had previously rejected, and denying the
same as “fatally late” because it was filed more than 28 days after the ruling at issue).
8

L\

(original source of quotation omitted).
Rather than satisfy the Costs Award, the Sammonses have engaged in a relentless
harassment campaign in open defiance of this Court’s Stay Orders and the Fifth Circuit’s
directives. Their concerted abuse of the judicial process is plain from both Court’s dockets: they
have filed numerous motions in this Court seeking various forms of reconsideration of the Stay
Orders and filed two appeals in the Fifth Circuit, wasting the Court’s time and causing Defendants
to incur substantial expense. This vexatious litigation conduct should not be tolerated, much less
rewarded by an order granting a second lift stay motion. See Gutierrez v. Workforce Sols., No. A18-CV-387-LY, 2018 WL 2656777, at *4 (W.D. Tex. June 1, 2018) (“No pro se litigant has the
‘license to harass others, clog the judicial machinery with meritless litigation, and abuse already
overloaded court dockets.’”) (quoting Farguson v. MBankHous., N.A., 808 F.2d 358, 360 (5th Cir.
1986)).

9

CONCLUSION
For the foregoing reasons, the Court should deny Dr. Sammons’s Motion.
Respectfully submitted,
/s/Christonher J. Richart _____________
Christopher J. Richart
Texas Bar No. 24033119
Orrick, Herrington & Sutcliffe LLP
609 Main Street
Houston, TX 77002-3106
Telephone: (713) 658-6414
Fax:(713) 658-6401
E-mail: crichart@orrick.com
Emmanuel Fua (pro hac vice)
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
Telephone: (212) 506-5000
Fax: (212) 506-5151
Email: efiia@or.rick.com
Steven J. Fink (pro hac vice)
Law Office of Steven J. Fink PLLC
100 Wall Street, 15th Floor
New York, NY 10005
Telephone: (646) 802-6976
E-mail: steven.fink@sifmk.nllc.com

Michael D. Bernard
Texas Bar No. 02211310
Melanie L. Fry
Texas Bar No. 24069741
Dykema Cox Smith
112 E. Pecan Street, Suite 1800
San Antonio, TX 78205
Telephone: (210)554-4419
Email: mbemard@dvkema.com
m frv@dvkema.com
Bruce G. Paulsen (pro hac vice)
Brian P. Maloney (pro hac vice)
Seward & Kissel LLP
One Battery Park Plaza
New York, NY 10004
Telephone: (212) 574-1200
Fax: (212)480-8421
Email: panlsen@sewkis.com
malonev@sewkis.com

ATTORNEYS FOR DEFENDANT
DRYSHIPS INC.

ATTORNEYS FOR DEFENDANT
GEORGE ECONOMOU

10

(3

CERTIFICATE OF SERVICE
I hereby certify that on February 28, 2020, I electronically filed the foregoing with the
Clerk of Court using the CM/ECF system. The following will be served by first class mail as
indicated below:
Elena Sammons
1013 10th St. #B
Galveston, TX 77550
Michael Sammons
1013 10th St. #B
Galveston, TX 77550

/s/Christopher J. Richart
Christopher J. Richart

11

Exhibit D

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
Elena Sammons,
Plaintiff,
v.

Case No. SA18-CA-0194-FB
JURY DEMAND

GEORGE ECONOMOU,
DRYSHIPS, INC.,
Defendants.
Reply of Plaintiff Elena Sammons
To Opposition to Motion to Lift Stay
Plaintiff Elena Sammons, pro se, ("Dr. Sammons”) would reply to the Defendants’
opposition to the motion to lift stay as follows:
The Greek Defendants, through numerous instances of federal securities fraud,
defrauded hundreds of millions of dollars from unsuspecting American investors. See
Silverberg v. DrvShips Inc.. No. 2:17-cv-4547 (E.D.N.Y.). Defendant Dryships CEO George
Economou was quoted as saying that "Americans are the dumbest investors around ..."
Complaint, #11. Perhaps so, but as this case, as well as the Silverberg case, show, defense
attorneys can only keep justice at bay for so long - as this and the Silverberg case prove,
justice marches on and the inevitable jury trials have now appeared on the distant horizon.
As to Defendants' opposition, the Plaintiff would show that ex-co-plaintiff Michael
Sammons and his claims have been dismissed from the case with prejudice pursuant to
FRCP, Rule 41 (a)(1)(A)(i) and Rule 41(a)(1)(B); therefore, the Rule 41(d) order and
related stay, both involving solely Mr. Sammons, have been rendered moot.
Rule 41(a)(1)(A) explicitly states "the plaintiff may dismiss an action without a court order
by filing: (i) a notice of dismissal before the opposing party serves either an answer or a motion for
summary judgment...”
It is undisputed that no Defendant filed "either an answer or a motion for summary
judgment.” Defendants would read into the clear and unambiguous rule the following:
"unless the plaintiff has failed to comply with any pending order of the Court.” The rule is
explicitly to the contrary. To paraphrase Justice Frankfurter's timeless advice on statutory
construction, "Read the rule. Read the rule. Read the rule.”
1

Ic5

Once a notice of voluntary dismissal is filed, the district court in which the action is
pending loses jurisdiction and cannot exercise discretion with respect to the terms and
conditions of the dismissal. "The action is terminated at that point, as if no action had ever
been filed.” Rn7.ellev. Lowe. No. SA-16-CV-489-XR (W.D. Texas - San Antonio), adopting
Commercial Space Mgmt. Co. v. Boeing Co.. 193 F.3d 1074,1076 and 1080 (9th Cir 1999).
“The action (as to Mr. Sammons) is terminated at that point, as if no action
had ever been filed.” id. Simply stated it is as if Mr. Sammons had never been a party to
this case at all. And any orders as to Mr. Sammons are rendered moot “as if no action had
ever been filed.” id.
So let us assume Mr. Sammons had never been listed as a plaintiff in this case. Of
course, the Defendants would have sought a Rule 41(d) order and stay as to Dr. Sammons.
But, as this Court has already concluded, Dr. Sammons is not subject to Rule 41(d) nor
responsible for nor liable for, Rule 41(d) costs. Dkt. 56, pg. 14 ("Accordingly, the Court
should impose the costs on Mr. Sammons only.”)1 So, had Mr. Sammons never been a
plaintiff in this case at all (the effect of his dismissal with prejudice), then the Rule 41(d)
motion would have been denied and no Rule 41(d) stay ever entered.
Finally it should be noted that the only purpose of Rule 41(d) in this case was to
spare the defendants the costs of further litigation as to Mr. Sammons's claims unless
Mr. Sammons paid the prior litigation costs required by the Rule 41(d) order. Now that
Mr. Sammons and his claims have been dismissed with prejudice the Defendants will never

1
Dr. (Mrs.) Sammons would be foolish to pay the Rule 41(d) $26,726 fine for
Mr. Sammons because she could not get the Rule 41(d) order reversed on appeal and
therefore could not recover any of the $26,726 on any appeal from a final judgment. Based
upon the pro se reversal rate in the Fifth Circuit, Dr. (Mrs.) Sammons would only have a 1%
chance of reversing the Rule 41(d) sanction against Mr. Sammons and recovering the
$26,726. So even if Dr. (Mrs.) Sammons won this case for federal securities fraud against
the Appellees, she could never recover the $26,726 if she (foolishly) decided to pay the
$26,726 fine for Mr. Sammons. Certainly no competent attorney would ever advise her to
do so.

2

Up

have to defend against Mr. Sammons' claims again - ever. That is all that the Defendants
were entitled to under Rule 41(d) and that is all that Rule 41(d) was meant to achieve.2
WHEREFORE, given "the virtually unflagging obligation of the federal courts to
exercise the jurisdiction given to them,” Colorado River Water Conservation Districts
United States. 424 U.S. 800, 817 (1976), the stay as to the only plaintiff left in this case Dr. (Mrs.) Sammons - should be lifted so that her claims (and only her claims) may proceed
to a jury trial.

Respectfully submitted:

Elena Sammons, pro se
1013 10th St #B
Galveston, TX 77550
210-858-6199
michaelsammons@vahoo.com

Certificate of Service
A true and exact copy was mailed or emailed to all parties this 29th day of February,
2020.

Elena Sammons

2 Mr. Sammons owned some shares of defendant Dryships only in his name.
Mrs. Sammons owned some shares of defendant Dryships only in her name. And
some shares were owned jointly. The dismissal with prejudice as to Mr. Sammons applies
to all shares owned solely by Mr. Sammons, and one half the shares owned jointly.
3

Exhibit E

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
ELENA SAMMONS and MICHAEL
SAMMONS,
Plaintiffs,
V.
GEORGE ECONOMOU, and
DRYSHIPS, INC.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO. SA-18-CA-194-FB

ORDER DENYING PLAINTIFF ELENA SAMMONS’ MOTION TO LIFT STAY
Before the Court are plaintiff Elena Sammons’ motion to lift stay (docket no. 104), defendants’
response (docket no. 106) in opposition thereto, and plaintiffs reply (docket no. 107). After careful
consideration of the motion, the response, the reply, the pleadings on file and the entire record in this
case, the Court is of the opinion the motion should be denied.
IT IS THEREFORE ORDERED that the Motion Plaintiff Elena Sammons to Lift Stay (docket
no. 104) is DENIED.
It is so ORDERED.
SIGNED this 11th day of March, 2020.
S

s

mBD BIERY
/
^UNITED STATES EHSTRICT JUDGE

L>0

App. 4
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
ELENA SAMMONS and MICHAEL
SAMMONS,
Plaintiffs,
V.
GEORGE ECONOMOU, and
DRYSHIPS, INC.,
Defendants.

)
)
)
)
)
)
)
)
)
)
)

CIVIL ACTION NO. SA-18-CA-194-FB

ORDER DENYING PLAINTIFF ELENA SAMMONS’ MOTION TO LIFT STAY
Before the Court are plaintiff Elena Sammons’ motion to lift stay (docket no. 104), defendants’
response (docket no. 106) in opposition thereto, and plaintiffs reply (docket no. 107). After careful
consideration of the motion, the response, the reply, the pleadings on file and the entire record in this
case, the Court is of the opinion the motion should be denied.
IT IS THEREFORE ORDERED that the Motion PlaintiffElena Sammons to Lift Stay (docket
no. 104) is DENIED.
It is so ORDERED.
SIGNED this 11th day of March, 2020.

fr£d biery

/

UNITED STATES DISTRICT JUDGE

U)

FILED
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
Elena Sanimons,
Plaintiff,
v.

FEB 21 2020
CLEBfc-^ v"vTRIpT CLERK
IR10TOF TEXAS
WESTERN
BY
.•■roirrY

Case No. SA18-CA-0194JURY DEMAND

GEORGE ECONOMOU,
DRYSHIPS, INC.,
Defendants.
Motion Plaintiff Elena Sammons to Lift Stay
Plaintiff Elena Sammons, pro se, requests the stay in this case be lifted.
In support thereof the Plaintiff would show that ex-co-plaintiff Michael Sammons
has filed a notice of dismissal pursuant to FRCP, Rule 41(a)(1)(A); therefore, the Rule 41(d)
order and related stay, both involving solely Mr. Sammons, has been rendered moot.

Respectfully submitted:

Elena Sammons, pro se
1013 10th St#B
Galveston, TX 77550
210-858-6199
michaelsammons@yahoo.com

Certificate of Service
A true and exact copy was mailed or emailed to all parties this 19th day of February,
2020.

Elena Sammons

1

*\o

App. 5

App. 6

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
Elena Sammons,
Michael Sammons,
Plaintiffs,
Case No. SA18-CA-0194-FB
JURY DEMAND

v.

GEORGE ECONOMOU,
DRYSHIPS, INC.,
Defendants.
NOTICE OF DISMISSAL BY MICHAEL SAMMONS
Plaintiff Michael Sammons, pro se, hereby gives notice that he hereby withdraws
from this case and is dismissing all of his claims, pursuant to FRCP, Rule 41(a)(1)(A).

Respectfully submitted:
****}j / .

/

Michael Sammons, pro se
1013 10th St #B
Galveston, TX 775505
210-858-6199
michaelsammons@vahoo.com

Certificate of Service
A true and exact copy was mailed or emailed to all parties this 18th day of February,
2020.

Michael Sammons
1

H\

